OIG Investigative Reports, Former Winthrop Woman Sentenced on Federal Mail Fraud and Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
Portland, ME November 30, 1999
Contact: James McCarthy:
Assistant U.S. Attorney
Tel.: (207) 945-0373
Former Winthrop Woman Sentenced on Federal Mail Fraud and Student Loan Fraud
Bangor, Maine: -  United States Attorney Jay P. McCloskey announced that Susan L. Mounce, 52, formerly of Winthrop and currently of Albion, Maine, was sentenced to 21 months in prison, to be followed by 3 years of supervised release on one case, and 6 months in prison followed by 3 years of supervised release on the other. The sentences were imposed today in the U.S. District Court in Bangor by District Judge Morton A. Brody. Mounce was indicted in February 1999 on two indictments and pleaded guilty to all counts in both indictments in August 1999.
In the first indictment, Mounce was charged with 15 counts of mail fraud. Mounce, who was receiving AFDC (Aid to Families with Dependant Children) and Medicaid, both administered by Maine's Bureau of Family Independence (BFI) and general assistance from the Town of Winthrop, lied on the application forms for aid and reported that she was separated and did not disclose her husband's income, which resulted in her receipt of over $75,000 in the period covering May 1988-April 1995.  Restitution was ordered to the Town of Winthrop and the Maine Department of Human Services in a total amount of $75,312.52.
The second indictment charged Mounce with 7 counts of mail fraud and 2 counts of student loan fraud. Mounce pleaded guilty to lying on an application form to the U.S. Department of Education for student aid when she attended Mid-State College in Augusta. The false statements were made on her 1994-1995 and 1995-1996 FAFSA (Free Application for Federal Student Aid) forms wherein Mounce represented that she was separated from her spouse and that her spouse's income earned from work was zero for 1993 and 1994. Seven checks were mailed to the school as a result of the false statements. Restitution was ordered in the amount of $6,062.00.
Mounce's husband lived in the residence and had income from his job during all of the time covered by the indictments.
United States Attorney McCloskey praised the investigative efforts of the U.S. Department of Education Office of the Inspector General and the Maine Department of Human Services Fraud Investigation and Recovery Unit and the U.S. Department of Health and Human Services Office of the Inspector General.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov